<html>
<title> - CHINA'S CHANGING STRATEGIC CONCERNS: THE IMPACT ON HUMAN RIGHTS IN XINJIANG</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                 CHINA'S CHANGING STRATEGIC CONCERNS: 
                 THE IMPACT ON HUMAN RIGHTS IN XINJIANG

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 16, 2005

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
25-440                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate                               House

CHUCK HAGEL, Nebraska, Chairman      JAMES A. LEACH, Iowa, Co-Chairman
SAM BROWNBACK, Kansas                DAVID DREIER, California
GORDON SMITH, Oregon                 FRANK R. WOLF, Virginia
JIM DeMINT, South Carolina           JOSEPH R. PITTS, Pennsylvania
MEL MARTINEZ, Florida                ROBERT B. ADERHOLT, Alabama
MAX BAUCUS, Montana                  SANDER LEVIN, Michigan
CARL LEVIN, Michigan                 MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         SHERROD BROWN, Ohio
BYRON DORGAN, North Dakota           MICHAEL M. HONDA, California
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                   STEVEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State

                David Dorman, Staff Director (Chairman)

               John Foarde, Staff Director (Co-Chairman)

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Millward, James A., associate professor of history, Georgetown 
  University School of Foreign Service, Washington, DC...........     2
Starr, S. Frederick, chairman, Central Asia-Caucasus Institute, 
  Johns Hopkins University School of Advanced International 
  Studies (SAIS), Washington, DC.................................     5
Southerland, Daniel, vice president of programming/executive 
  editor, Radio Free Asia, Washington, DC........................     7

                                APPENDIX
                          Prepared Statements

Millward, James A................................................    28
Starr, S. Frederick..............................................    31
Southerland, Daniel..............................................    33


  CHINA'S CHANGING STRATEGIC CONCERNS: THE IMPACT ON HUMAN RIGHTS IN 
                                XINJIANG

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2005

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10 
a.m., in room 480, Ford House Office Building, David Dorman 
(Senate Staff Director) presiding.
    Also present: John Foarde, House Staff Director; Carl 
Minzner, Senior Counsel; Steve Marshall, Senior Advisor; 
Katherine Palmer Kaup, Special Advisor on Minority 
Nationalities Affairs; and Pamela N. Phan, Counsel.
    Mr. Dorman. On behalf of our Chairman, Senator Chuck Hagel, 
and our Co-Chairman, Representative Jim Leach, I would like to 
open this roundtable of the Congressional-Executive Commission 
on China on how the Chinese Government's changing security 
concerns in Central Asia may be having an impact on the human 
rights situation in Xinjiang.
    Before we get started, please note that this room has no 
microphones and therefore neither the voices of our staff panel 
nor our expert panel will be amplified. Each of us on the dais, 
and our panelists as well, will try to speak up, but please 
feel free to raise your hand during the course of the next 90 
minutes if our volume begins to drop and you cannot hear. I 
will try to indicate politely to whomever is speaking to raise 
the volume level of his or her voice.
    I would like to make a short opening statement, then we 
will get right into today's discussion. As has been our 
practice, I will introduce each of our panelists first and then 
give each, in turn, 10 minutes to make an opening statement.
    When all panelists have made their opening statements, each 
staff member on the dais will have five minutes to ask a 
question and hear an answer from our panelists, and we will 
continue this for 90 minutes or until we run out of questions.
    Over the past years, we have never run out of questions, so 
I am sure that we will have to end things at 90 minutes with a 
last question and hold the remaining conversation until the 
next roundtable.
    So with that, I would like to make a short statement and we 
will get started.
    The Chinese Government continues to strictly regulate 
Muslim practices, particularly among members of the Uighur 
minority. All mosques in China must register with the state-run 
China Islamic Association. Imams must be licensed by the state 
before they can practice and must regularly attend patriotic 
education sessions. Religious repression in Xinjiang is severe, 
driven by Party policies that equate peaceful expression of 
Uighur identity and religion with terrorism and extremism. 
Since the Soviet Union dissolved in 1991 and independent states 
were established in Central Asia, the Chinese Government has 
tightened controls over expressions of ethnic identity, 
particularly among the members of the Uighur ethnic group in 
the Xinjiang Uighur Autonomous Region. Following the 9/11 
terrorist attacks in the United States, the Chinese Government 
has equated peaceful expressions of Uighur identity with 
``subversive terrorist plots.''
    In this regard, I would like to highlight the Commission's 
deep concern about the recent sentencing of Uighur editor 
Korash Huseyin for publishing an article by Uighur writer 
Nurmemet Yasin. Mr. Yasin is currently serving a 10-year 
sentence for writing the article. I would point to a line I 
just saw in Professor Millward's written statement that says 
``literature is not terrorism.''
    The Xinjiang Government has increased surveillance and 
arrested Uighurs suspected of ``harboring separatist 
sentiments'' since popular movements ousted Soviet-era leaders 
in Ukraine, Georgia, and Kyrgyzstan.
    This roundtable will address the treatment of minorities in 
Xinjiang, particularly the Uighur ethnic group, and explore how 
China's security concerns in Central Asia and western China 
affect human rights.
    In its 2005 Annual Report, the Commission recommended that 
the President and the Congress should continue to urge Chinese 
officials not to use the global war against terrorism as a 
pretext to suppress minorities' legitimate, peaceful 
aspirations to exercise their rights protected by the Chinese 
Constitution and the Regional Ethnic Autonomy Law [REAL].
    With that, I would like to introduce Dr. James Millward, 
who is Associate Professor of History at the Georgetown 
University School of Foreign Service. Professor Millward is the 
author of several books and articles on Xinjiang, including 
``Violent Separatism in Xinjiang: A Critical Assessment,'' ``A 
History of Chinese Kyrgyzstan,'' yet to be published, and 
``Beyond the Pass: Economy, Ethnicity and Empire in Qing 
Central Asia: 1859-1864.'' Dr. Millward holds a B.A. from 
Harvard University, an M.A. from the School of Oriental and 
African Studies at the University of London, and a Ph.D. from 
Stanford University.
    Professor Millward, please take 10 minutes for your opening 
statement.

STATEMENT OF JAMES A. MILLWARD, ASSOCIATE PROFESSOR OF HISTORY, 
GEORGETOWN UNIVERSITY SCHOOL OF FOREIGN SERVICE, WASHINGTON, DC

    Mr. Millward. Thank you, Mr. Dorman. I would like to thank 
you and the Commission for the opportunity to come down and 
talk with you today.
    The draconian policies, which I think in most of our eyes 
are also counterproductive policies, of the Chinese Government 
in Xinjiang today, I think, derive from several factors. One of 
these, I think, is the lessons taken by the Chinese leadership, 
particularly hard-line members of the Chinese leadership, from 
the relaxation, or relative relaxation, of restrictions on 
religion and expression in the 1980s.
    With the emergence of a number of popular demonstrations, 
and in particular with the events of the early 1990s, the 1990 
Baren incident and other violent acts, the leadership, I think, 
took the message that a little bit of relaxation can unleash a 
lot of dissent and a lot of problems in the area. I think in 
many ways they have continued under that understanding right up 
to the present, even while relaxing political controls to a 
certain degree in other parts of China.
    But there are other reasons underlying the current policies 
in Xinjiang. Another of those, of course, is fear of organized 
terrorism, terrorist groups, or perhaps other sorts of violent 
separatism. As I have argued in the publication which you just 
cited about violent separatism, I think the public statements 
and the public assessment of that danger by the PRC Government 
is somewhat exaggerated. However, I hasten to add that I only 
have access to 
open-source materials on which to judge and I can only go from 
my analysis of what is publicly said and available. So it may 
be that, in fact, the threat of violence of one sort or another 
is worse than it appears to me, and that might explain the 
intensity of the PRC Government's concern about Xinjiang.
    But I think that there is yet another reason underlying the 
current policies, and that is a fear of foreign involvement, a 
deep and abiding insecurity--and perhaps to our eyes an 
irrational sense of insecurity--about China's control in the 
region. I think, to a great degree, that sense of insecurity 
arises from how Chinese see the history of Xinjiang, 
particularly the modern history from the 18th century conquest 
during the Qing period.
    I have given in my written statement a little history 
lesson. It is a history lesson through a fairly narrow frame, a 
narrow lens. What I have tried to do is outline the history of 
the last 250 years or so in Xinjiang as it is very often 
portrayed in China, in Chinese materials, in history texts, in 
statements by political leaders, even in schoolbooks, on Web 
sites, and so on. Basically, it is a long list of ``foreign 
interference in China's internal affairs,'' a Chinese term we 
all know for foreign involvement in military and other sorts of 
events in the region. I do not think I should go over it all 
here, except to say that the lesson that one should take from 
that view of history is not that current policies are 
justified. I am not trying to say that current policies are 
justified by this history, but rather that Chinese scholars, 
Chinese leaders, to a certain extent Chinese citizens, 
particularly Han Chinese citizens in the region, do in fact 
believe this history, do in fact believe that there have been a 
long chain of attempts by foreign powers to undermine Chinese 
control of the Xinjiang region. And in particular, since the 
1980s and 1990s it has been routine for Chinese officials to 
blame the United States, either through insinuation, or 
occasionally through outright statements, for supporting 
separatism by lending aid and moral support to separatist 
groups. This is always described in Chinese sources in very 
shady and murky terms. But the effects of decades of this kind 
of propaganda are real and I think it is often forgotten that 
in authoritarian, non-transparent regimes, people often come to 
believe their own propaganda. People come to believe their own 
versions of history. In this case, moreover, there is at least 
a certain factual core underlying this view.
    Against that background, recent events in Central Asia--in 
particular, the post-9/11 advance of U.S. military interests, 
the arrival of U.S. military bases in the region, as well as 
renewed military arrangements with both Pakistan and India, and 
of course the ``color revolutions,'' all of these new factors 
on the strategic scene fit into this historical framework, this 
historical narrative of foreign threat to China's control over 
Xinjiang.
    I think that narrative is the framework within which 
Chinese leaders and thinkers are predisposed to see these 
events. They remember, much more than we do here, that there 
was a CIA agent, Douglas MacKiernan, on the scene in Urumqi in 
1949 who went off to meet Osman Batur among the Kazakhs, fled 
to Osman's camp when the PLA took over Urumqi. And they see 
MacKiernan's activity as the seeds of a CIA plot to undermine 
PRC control and to support a guerrilla insurgency in Xinjiang, 
much as the CIA later sponsored Tibetan guerrillas in Tibet.
    This is a very present part of their historical 
consciousness, and therefore it is not nearly as unreasonable 
to Chinese as it seems to us that the United States would use 
sympathy for Uighurs and support for Uighur human rights as a 
shield or a cover for nefarious purposes.
    I point this out, I suppose, to encourage those who are in 
the business of expressing concern about human rights in China 
to try to do it in ways that take into account these Chinese 
anxieties, to try to assuage those anxieties as much as 
possible.
    This is difficult, I think, given the current U.S. efforts 
to expand its military foothold in Central Asia, but I do not 
think it would be impossible.
    I believe I have used up my time.
    Mr. Dorman. You have two minutes.
    Mr. Millward. All right. In two minutes, I can go into more 
Qing Imperial period history for you. The Zuo Zongtang conquest 
is a fascinating subject!
    Mr. Dorman. You have raised plenty for questions.
    Mr. Millward. All right. Well, then I will leave it and 
more can come up in the question period.
    [The prepared statement of Mr. Millward appears in the 
appendix.]
    Mr. Dorman. Next, I would like to introduce Dr. S. 
Frederick Starr, who is Chairman of the Central Asia-Caucasus 
Institute at the Johns Hopkins University School of Advanced 
International Studies. Dr. Starr is the author or editor of 
over 20 books and 200 articles on Central Asian and Russian 
affairs, including ``Xinjiang: China's Muslim Borderland,'' 
published in 2004. He is a trustee of the Eurasia Foundation 
and a Fellow of the American Academy of Arts & Sciences.
    Dr. Starr, we welcome your opening statement.

    STATEMENT OF S. FREDERICK STARR, CHAIRMAN, CENTRAL ASIA-
CAUCASUS INSTITUTE, JOHNS HOPKINS UNIVERSITY SCHOOL OF ADVANCED 
          INTERNATIONAL STUDIES (SAIS), WASHINGTON, DC

    Mr. Starr. Thank you, Mr. Dorman. I should say that Jim 
Millward contributed to that Xinjiang volume the most concise 
and comprehensive short history of the region in any language. 
Before beginning, I would just note that Chinese sensitivities 
in this are, it seems to me, indistinguishable from Russian-
Soviet sensitivities with regard to Ukraine and the Baltic 
countries and the Caucasus. The same language is used; the same 
high historical evidence is brought forward. Chinese concerns 
are real, but we should keep them in perspective. I should also 
note that during the 1960s the Chinese were very glad to 
cooperate with the United States and the CIA in Xinjiang in 
their armed struggle with the Soviet Union that occurred on the 
western border. This, too, is also part of the history.
    I would like to speak of 10 areas concerning 
democratization and human rights, and characterize their 
condition in Xinjiang today; and then draw some very quick 
conclusions.
    First, are there free and fair elections? No.
    Two, does there exist a parliamentary body or any form of 
representative government? No.
    Three, does the Turkic population enjoy equal legal or 
economic rights with the Han Chinese? No. The number of Uighurs 
in top government jobs has actually shrunk and they have 
clamped down on Turkic entrepreneurship. Health indicators are 
far better for Han Chinese than for Turkic peoples, et cetera, 
et cetera.
    Four, is the court system free of governmental 
interference? No, no more than it was free in the USSR, from 
which Maoist China borrowed most of its judicial institutions.
    Five, does the government observe minimal international 
standards for persons held in jail and labor camps? No. In 
fact, the government has managed very successfully to prevent 
information on this from getting out.
    Six, do the Turkic peoples of Xinjiang have reasonable 
access to income-producing employment and social services? To 
some extent, but their access is worse than for Han Chinese.
    Seven, is the practice of religion free from governmental 
interference? You yourself have spoken to that, Mr. Dorman.
    Eight, are domestic or international NGOs able to function 
in Xinjiang? No. The most successful ones that have been set up 
locally have all been closed down by legal action. These 
actions have been very harsh, and in one instance, several 
hundred people were killed as you know.
    Nine, are there free media? No.
    Finally, do citizens of Xinjiang have access to 
international travel and contacts through which they could air 
their concerns in relevant international forums? No, obviously.
    That is the context. This is the result of Beijing's very 
successful policy, ``Strike Hard, Maximum Pressure.'' There is 
nothing subtle about it. Just this week that policy was 
reaffirmed. It dates from prior to 9/11.
    The impression of most of the scholars with whom I am in 
contact is that most Turkic peoples in Xinjiang would be quite 
content if rights implied in the name of the province, the 
Xinjiang Uighur Autonomous Region, were applied in practice. 
They do not seek separatism. If separatism ever existed, it is 
certainly dead within the territory of Xinjiang today. What 
does exist is a moderate movement toward some kind of autonomy 
that most people, I suspect, would be quite content with.
    The point I want to raise, is this: since the collapse of 
the USSR, we have been concerned with the fate of human rights 
in the Caucasus and Central Asia. Our focus, and the focus of 
your Commission, has been overwhelmingly on the independent 
states that were formed out of the collapse of the USSR: three 
in the south Caucasus and five in Central Asia.
    But, of course, these countries are only part of their 
respective regions. The North Caucasus includes Chechnya, 
Ingushetia, Dagestan, et cetera. The greater Central Asian 
Region includes Afghanistan and Xinjiang. Bluntly, we react 
very differently to the 
circumstances in the two situations. When any of the new, 
small, relatively weak, relatively poor but independent states 
stumble in the area of democracy, human rights, and religious 
freedom, we editorialize against them, pass censure motions, 
and heap public abuse on their leaders, whom we then refuse to 
receive in the White House. We threaten to suspend or de-
certify them from our favor, and even bar humanitarian 
assistance to them.
    By contrast, when larger, rich and powerful states--
specifically Russia and the People's Republic of China--impose 
their rule over other parts of the same regions with brutal and 
primitive force, in the process assaulting the principles of 
democracy, human rights, and religious freedom, we continue to 
receive their leaders as honored guests. We rap their knuckles 
but otherwise do nothing.
    My point is that the United States, by its very founding, 
placed itself on the side of national self-determination and 
those seeking freedom from imperial rule. Now we seem to be 
supporting the imperial powers. Our response to mischief in 
struggling new states is much harsher than our response to more 
serious offenses in large states. True, we are not giving a 
pass to China and Russia in these respective regions as is 
clear from the President's speech yesterday. But we are 
certainly not pursuing these matters with anything near the 
same intensity that we are pursuing less grave matters in the 
new states.
    Let me stress that I am not arguing against engagement with 
the People's Republic of China, nor am I proposing that we give 
a pass to governments in other parts of Central Asia and the 
Caucasus when they commit abuses in the areas that we are 
concerned with. Instead, I am suggesting that it is time that 
we take our finger off the scales and start acting on our 
values in a consistent manner. At the very least, let us stop 
allocating rewards and punishments, engagement and rebukes on 
the basis of whether a country is large or small, secure or 
vulnerable, powerful or weak.
    Thank you very much.
    [The prepared statement of Mr. Starr appears in the 
appendix.]
    Mr. Dorman. Next, I would like to introduce Mr. Daniel 
Southerland, who is Vice President of Programming and Executive 
Editor at Radio Free Asia. Prior to joining RFA in 1996, Mr. 
Southerland was a foreign correspondent in Asia for 18 years. 
He served as the Washington Post Bureau Chief in Beijing from 
1985 to 1990. Mr. Southerland was awarded the Edward Weintal 
Prize for distinguished reporting in 1995 for a series on the 
Mao Zedong years in China, and was nominated for a Pulitzer 
Price in 1990 for his coverage of Tiananmen. He holds a B.A. 
from University of North Carolina, an M.S. in East Asian 
Studies from Harvard, and an M.S. in Journalism from Columbia 
University.
    Mr. Southerland, please take 10 minutes for your opening 
statement.

STATEMENT OF DANIEL SOUTHERLAND, VICE PRESIDENT OF PROGRAMMING/
       EXECUTIVE EDITOR, RADIO FREE ASIA, WASHINGTON, DC

    Mr. Southerland. The Chinese Government has for many years 
tightly controlled information reaching the Uighur people in 
Xinjiang. But the government's controls over the media and 
freedom of expression in Xinjiang appear to have grown even 
stricter since the 9/11 attacks in the United States in 2001.
    I agree, by the way, with Jim Millward that the Baren 
incident, which I tried to cover from Beijing in, I guess it 
was, 1990, was a kind of a turning point which needs to be put 
in the record, because that had a real sharp effect in Beijing.
    We had a great deal of trouble getting the story straight 
because they barred foreign correspondents from going into the 
area. There was one guy from Agence France-Presse who was there 
who was escorted out of the area, so it did relate to 
restrictions on mosque-building, I believe, which is still an 
issue. So, that is very important.
    This goes back a lot farther than the changes in Central 
Asia and the 9/11 attacks. They just made things worse. There 
was already a great deal of paranoia about weapons getting into 
Xinjiang, and so forth, and there were some deaths that were 
involved in that Baren incident.
    The media is more tightly controlled in Xinjiang than in 
any other part of China that I can think of, and I think that 
would include Tibet, although perhaps it is equally tightly 
controlled in Tibet. But the atmosphere certainly is more 
repressive in Xinjiang than in any other part of China, perhaps 
even including Tibet. As a result, broadcasting to the Xinjiang 
Autonomous Region has constituted one of the most challenging 
tasks undertaken by Radio Free Asia.
    When it comes to Uighur-language broadcasting, RFA is the 
only broadcaster that attempts to provide accurate and 
objective news. We have some Saudi Arabian broadcasting, but it 
is almost exclusively on religious matters. Taiwan, as far as I 
know, stopped broadcasting in Uighur. There are Central Asian 
broadcasts in Uighur, but these are edited so as not to offend 
the Chinese Government.
    The government itself broadcasts in Uighur, but censors the 
information that is of most importance to the Uighur people, 
that has the greatest relevance to the Uighur people. Foreign 
correspondents do travel to Xinjiang, but rarely, and when they 
go, they are on guided tours. So, RFA covers stories that no 
one else covers, and the Chinese Government is doing things in 
Xinjiang that it no longer does in many other parts of China.
    Executions of political prisoners occur in Xinjiang. Books 
are banned routinely, and they do not just ban the books, they 
burn them. There is forced labor in Xinjiang that is not 
occurring elsewhere in China. Restrictions on religious 
education, of course, were mentioned. Textbooks are rewritten 
so that Uighurs cannot recognize their own history. I actually 
have two broadcasters working for me who were historians who 
were trying to write the true history of the region, and they 
had to flee because they were in danger.
    Educational reform is another thing that we cover, where 
the Uighur language has been replaced by the Chinese language. 
This started at the university level and is now moving down to 
the elementary level.
    In this kind of an environment, it was mentioned that 
literature is off limits, in many ways. Uighur writers are 
particularly vulnerable. A writer who is promoting non-violent 
dissent can be accused of advocating terrorism. In mid-2005, 
RFA reported on the author that we mentioned, the author of a 
first-person narrative, a fictional narrative or fable about a 
young pigeon who commits suicide rather than sacrifice his 
freedom. The authorities apparently read that story as an 
indictment of China's heavy-handed ruling over Xinjiang and, as 
you mentioned, gave the writer, Mr. Yasin, a 10-year jail 
sentence.
    As you can imagine, it is no wonder that we are under heavy 
jamming from the Chinese Government. They use loud noise and 
music to jam our broadcasts. The U.S. Government and the FCC 
complain to the Chinese Government about this, and China denies 
it is doing any jamming. Three years ago, officials of the 
Xinjiang radio, a state-run radio broadcaster, and state-run 
television revealed that they were investing nearly $40 million 
in a new project designed to even more heavily jam 
international broadcasts, and obviously we were a target. They 
began building up their own Uighur broadcasting capability.
    They also, in the year 2004, began trying to disrupt our 
Mandarin, Tibetan, and Uighur call-in shows by using a certain 
modem-driven automatic system to bombard us with calls so that 
legitimate calls could not get through. We have managed somehow 
to overcome that problem.
    We get tips through this hotline, the call-in show from 
Xinjiang, from people in remote villages who tell us stories 
that would never get out unless they called us. One such story 
came from a farmer, a herdsman who called to say that he had 
gone to the local Uighur radio station in Ili to tell the 
journalist there that there was a very lethal disease that was 
killing cows and sheep, and they said they could not broadcast 
it. Finally, somebody told one of the farmers, ``Why don't you 
go to Radio Free Asia and give them a call and get the story 
out?''
    We have a Web site, which is heavily blocked by the Chinese 
Government, but we do know that our news does get through via 
proxy servers and ``human proxies'' who e-mail our reports or 
post them. The stories get through in rather creative ways. In 
March, when Uighur businesswoman Rebiya Kadeer arrived in 
Washington following her release from prison--and I am sure you 
all know that story. She spent five years in prison after 
protesting against China's mistreatment of Uighurs. She arrived 
at Reagan National Airport, and embraced her husband. We had a 
photo of that embrace which went out via Internet to Xinjiang, 
where the Internet police promptly blocked it, but not in time 
to prevent someone from cutting and pasting and removing the 
banned RFA address and moving the story along, so that when 
Kadeer, within hours, called her children up, they had seen the 
photo. So, information does get through, despite the 
challenges.
    Based on studies done by RFA's research department, the 
atmosphere in Xinjiang is the most repressive of any region in 
China that I know of. One study concludes, not surprisingly, 
that the authorities have used the global war on terror to 
justify harsh measures designed to stamp out dissent. In 
contrast with other parts of China where people now feel free, 
in private, to discuss personal matters, more so than when I 
first went to China, certainly, and even political issues if 
they do not challenge the Communist Party, many Uighurs dare 
not discuss sensitive issues even with friends or family 
members.
    Internet usage is gradually spreading, chat rooms are 
increasing in number, but accessing the Web sites of 
international broadcasters remains an activity too risky for 
most Uighurs to try, based on our research.
    But for many Uighurs, RFA broadcasts remain a lifeline in a 
hostile media environment. International broadcasts are the 
only means for many Uighurs to get reliable news of the outside 
world, as well as news about developments inside their own 
region.
    I think I went over the 10 minutes. I borrowed a minute 
from Professor Starr.
    [The prepared statement of Mr. Southerland appears in the 
appendix.]
    Mr. Dorman. Well, good. Thank you very much for excellent 
opening statements. There is plenty of material for us to have, 
I think, a good discussion.
    As all of you know, the Commission staff has a 
responsibility to report to our members, both in the Executive 
Branch and Legislative Branch, on human rights and rule of law 
issues in China. We attempt to do that in a way that is as 
balanced, factual, and constructive as possible. One of the 
areas that we have had a particular challenge in completing 
this task involves Xinjiang, due to a lack of information. We 
rely to a great extent on RFA and the work that Dr. Millward 
and Dr. Starr, among others, have done in this regard.
    Mr. Southerland noted in his opening statement that over 
time, particularly over the last 5 to 10 years, there has been 
less and less information on what is happening in Xinjiang. I 
do not think I am misquoting Mr. Southerland. Yet, at the same 
time, the sorts of reports and analyses we see on Xinjiang 
suggest that the situation there continues to get worse. Could 
each of you comment on the relationship, if any, between these 
two phenomena? How is the lack of information impacting our 
analyses of the current situation in Xinjiang?
    A second and related question that I would ask each of you 
to address concerns the issue of violent extremism. Both Dr. 
Starr and Dr. Millward discussed this in their opening 
statements. What is your assessment regarding the existence of 
violent extremism in Xinjiang? Realizing that we do not have 
solid numbers or percentages, but based on what we have and 
what you have seen and heard, how good, how accurate can our 
assessments be without more information? How would you assess 
statements by the Chinese Government on this subject?
    I will ask Dr. Millward to start.
    Mr. Millward. Yes. I did some work on this question, I 
guess, a year and a half ago. It is contained in my publication 
that you mentioned before. My methodology in doing that was to 
gather whatever I could from a search via Nexis and other 
sources, and also to read Chinese official reports, white 
papers, and some supposedly internal materials that have 
nonetheless gotten out and were widely circulated in the West, 
and analyzing these things against each other, looking for 
internal consistencies and inconsistencies, particularly with 
regard to the white paper on terrorism that was released in 
January 2002.
    I found a lot of inconsistencies, in particular, in the 
long list of terrorist acts that the Chinese released in 
January 2002, which was the first such ostensibly comprehensive 
catalog that we've had. In this document, which contained lists 
of past acts and lists of supposedly terrorist groups, did not 
link up the two. In other words, there are many acts listed and 
then there are names of, supposedly, many groups. But the list 
does not--with a couple of exceptions--accuse particular groups 
of committing particular acts. One of the exceptions was, in 
fact, the 1997 Ili incident, which as we know from a good deal 
of other reporting, was not a planned terrorist act at all, but 
rather a demonstration and a clash between the state and Uighur 
civilians in Ili that got out of hand. So from that and other 
work with these sorts of sources, I determined that as far as I 
can tell, the threat of organized militarist or militant 
resistance or of terrorist acts has been exaggerated.
    Now, I am always nervous saying that, because all it takes 
is one big bomb somewhere to shoot a hole in my theory. So I am 
very cautious. Of course, we recently had a release of a little 
video by a group calling themselves the Lions of the Tianshan 
in which they threatened Chinese military and intelligence and 
other sort of state targets in Xinjiang and in China proper and 
urged Uighur and Han civilians not to come out to the 
ceremonies to commemorate the 50th anniversary of the founding 
of the Xinjiang Uighur Autonomous Region. It is very hard to 
know what to do with a press release such as that video from a 
group we have not heard of before, and there are various ways 
to interpret it. We have not seen any action by this group, is 
all that I can say.
    Now, I need to say one more thing. You prefaced your 
question with the comment that ``it seems things are getting 
worse and worse'' in the region. Now, that is perhaps true from 
a certain point of view, but I am not sure that it is entirely 
true. I will not go into my reasons for that, since the thrust 
of your question is----
    Mr. Dorman. We base much of what we do here on what people 
like you help us understand. I am referring to reports pointing 
to a worsening situation--and not that I am disputing them--
just asking for your impressions and analysis of how we should 
look at these reports.
    Mr. Millward. I see. All right. Well, then, very quickly, 
Professor Starr himself referenced, at the beginning of his 
written statement, that when you go to Xinjiang you see 
increasingly modernized cities, you see the results of oil 
revenue and of development efforts, and so on. I have not been 
there, for a year, year and a half or so. The Chinese 
Government is not routinely granting me visas at this point, 
which I think is not smart on their part because of what I am 
about to say, which is that, when I was there a year and a half 
ago, many of my views about the state of things in Xinjiang 
were moderated by what I actually saw on the ground. Just as 
one example: I had heard before I went that the old city of 
Kashgar had been virtually razed and people had been moved out, 
and so on. This had been portrayed as a plot or a planned 
government campaign to clear out this old city, which was hard 
to control and hard to police, and was seen as a source of 
dissent. Now, when I got to Kashgar, yes, there had been some 
demolition, particularly around the area of the Idkah mosque, 
but the demolition was nowhere near as widespread as I had been 
led to believe.
    Moreover, I found that other places that had been slated 
for demolition and urban renewal, had in fact been saved. The 
reasons both for the planned demolition and for not demolishing 
these areas had to do with local business interests, local 
government, and plans for development and various deals going 
on. I have heard similar stories for other cities besides 
Kashgar. Hotan was one 
example.
    In other words, what is actually going on here is a common 
problem of local government in cahoots with developers, of 
local government officials having some sort of idea of what the 
city should look like, but not necessarily thinking through all 
of the implications of that. In the Kashgar case, I heard it 
was another company, a tourist company--a Chinese domestic 
tourism company which itself had a deal for tourism in 
Kashgar--which got in touch with local authorities there and 
said, ``What, are you crazy? If you tear down this old town, 
that is it for this kind of tourism.'' And the local government 
retreated from some of its plans for demolition and rebuilding 
in the old city of Kashgar. So, these situations on the ground 
are much more complicated than one can learn from abroad.
    Finally, a slight impression I got, which was that, 
although relations between Uighur and Han continue to be very 
tense on an interpersonal level, you can feel this almost 
palpably, and it is worse than 10 years ago--on the other hand, 
the ``embourgoisment'' effect, the middle class effect, that we 
see in many parts of China, of people--indeed, as was 
predicted--becoming better off, who are beginning to benefit 
from the economic reforms, are in turn moderating, tempering 
some of their discontent as a result of that. This is 
affecting, certainly, some Uighur urban dwellers as well as Han 
dwellers.
    Now, this development is anecdotal. I have no survey 
evidence to back this up unfortunately. Indeed, a survey to 
that effect would not be possible in the current climate in 
Xinjiang. Nonetheless, one gets these sorts of impressions. So, 
very cautiously then, I would suggest that the impression of a 
ticking time bomb, or a bubbling cauldron, or whatever metaphor 
you use to imply that things are ramping up to some sort of 
inevitable crisis--that may not be the case. Of course, none of 
this is to downplay the severity of human rights abuses that 
are going on, or the extent of religious controls, and other 
things mentioned in the press and the CECC report.
    Mr. Dorman. Thank you. I have used more than my five 
minutes, but if either of you would like to comment on the 
original question, you will have that time and I will pass on 
my next round.
    Dr. Starr.
    Mr. Starr. First, on the information, I think your 
proposition is right: no news is bad news. Second, on violence, 
there has been a good deal over the last decade. There are 
people blowing up Communist Party headquarters, offices, and 
doing that sort of thing, and it is not at an end.
    I think, though, what one has to do here is make a serious 
distinction. First of all, there is, and has been, some 
violence, 
terrorism, if you will, of the Islamic and Al Qa'ida flavor, 
not surprising considering that Xinjiang borders Afghanistan 
and Pakistan. Neither of these seem to be on the rise. On the 
contrary, the Chinese authorities seem to have put a pretty 
firm stop to it.
    With Afghanistan, of course, after 2001, we did a huge 
favor to the Chinese interests in Xinjiang as we took that in 
hand. But also, many Pakistanis who were heading up to 
Xinjiang, trading along the Kharkoram Highway, selling plastic 
bottles and chadors, generally did not get a very good 
reception, and they generally have not had a good reception 
because they have a bad habit of drinking everything in sight 
and messing with local Turkic females, which does not endear 
them to the local Turkic peoples. So, I would not say that that 
is a major issue.
    What is a concern, is the other kind of violence. That is, 
to use old Communist rhetoric, related to national liberation 
movements. Now, this sort of thing will be back. It is not 
dead. This has been the concern. I think we really have to make 
a distinction that we have blurred in recent years between 
those who, in various parts of the world, are seeking 
legitimate forms of autonomy within a given state or who are 
seeking independence.
    What happened here in America at Concord Bridge in 1775 was 
an act of violence against a legitimate state. We as colonists 
claimed it was illegitimate. North Carolinians, during the 
Revolution, regularly practiced what we would have to call 
terrorism. And the very style of American warfare during the 
Revolution certainly did not comport well with what was 
considered civilized fighting in that day.
    I think the same issue exists, of course, in the north 
Caucasus. Just to say that someone has acted violently is not 
the end of the issue. I mean, it seems to me we can reasonably 
say, ``Look, you have got a serious problem on this autonomy 
issue. You promised it in name, but there is no functioning 
administrative decentralization and autonomy. Deal with it.'' 
Mao Zedong himself gave the 
region that name.
    Finally, as to the question of general prosperity, I would 
just remind you that it is the urban moderates who have been 
the leaders of this movement--they always are, of national 
independence movements--and not the really poor in the 
countryside. If that is the case, you can expect more trouble, 
not less.
    Mr. Dorman. Good. Thank you.
    Mr. Southerland.
    Mr. Southerland. I would just add a word. You mentioned at 
the beginning of your question that there is less and less 
information available. I think that is partly because people 
have grown more fearful. I mentioned earlier that the 
atmosphere has not gotten better.
    I think another reason for this might be that some of the 
most articulate and intelligent Uighurs have actually fled, 
managed to get out, so we are beginning to see how we have a 
significant population of Uighurs in the United States. These 
are people who might be able to describe a situation from 
inside that they simply could not survive in Xinjiang. So, it 
does not tell you very much, except that it is harder to get 
information.
    On the violent extremism, I think Jim Millward has really 
made a very good contribution in documenting that it has not 
shown an upward trend. I hope I am quoting him correctly. I 
also suspect that once he looks more deeply into this, or 
others look more deeply into it, we are going to find that a 
lot of these groups that make grand declarations and so forth 
are very divided among themselves. I think there is an 
incredible amount of factionalism in these groups, which means 
that they may be very small indeed.
    We are gratified that in the countryside, where a lot of 
people have really been left behind by this economic boom, the 
oil wealth, and so forth, that we do have quite a few 
listeners. We get these calls, as I mentioned, from farmers. It 
takes a lot of guts for a farmer to get the number. There was a 
Reuters reporter or a wire service reporter in one of these 
earthquake-stricken areas once who had a Uighur come up to him, 
and he had written the RFA phone number down and he said, ``I 
am going to call these people, get the story out.''
    So, I am not putting down the courage of people. I think 
there are still a lot of courageous people. But there is an 
atmosphere of fear. I think the boom is real, but it has 
benefited mostly Han Chinese. It is always a question of 
relative deprivation. There is a gap. Some Han Chinese are 
indeed getting very wealthy. When a Uighur gets too wealthy, he 
or she is likely to be co-opted, or put under a lot of 
pressure. Rebiya Kadeer is perhaps the perfect example of 
someone, a moderate, but her wealth and her influence were too 
much for the government to bear and so she was jailed for 
spurious reasons.
    Mr. Dorman. Good. Thank you. I would like to thank all of 
my colleagues on the dais for their understanding. I will not 
ask a question in the second round.
    I would like to turn things over to my colleague, John 
Foarde, who is Staff Director for Mr. Leach, our Co-Chairman.
    John.
    Mr. Foarde. Thank you, Dave.
    Thanks to all three of our panelists for coming this 
morning to share your expertise with us on this important 
issue.
    I was struck by a comment that Dr. Millward made during his 
presentation about a longstanding perception in China of U.S. 
involvement in supporting, for lack of a better term, 
``splittism'' in Xinjiang. I wondered--and I would address this 
to both Dr. Millward and Dr. Starr--when you travel to Xinjiang 
or travel to China and discuss these issues with your 
counterparts, do you hear them play these themes, and is there 
a difference between the types of things that you might hear 
from an ethnic Han interlocutor or an ethnic Uighur, or an 
Uzbek or a Kazakh in Xinjiang?
    Mr. Millward. Yes, there is a difference between what you 
will hear from an ethnic Han or an ethnic Uighur, and it breaks 
down along the lines you would expect. In talking with Chinese 
scholars, including a director of an institute that deals with 
frontier issues with whom I am well acquainted, I think there 
is sort of a question of etiquette here. They do not bring this 
up directly in your face, and we are quite friendly. Where you 
see it is in their writings, and particularly in more policy-
oriented writings, of which we have a few that have come out 
recently. Reading these, I am struck by the frequency with 
which the NATO intervention in Kosovo has been brought up, and 
I am sure once the history of the ``color revolutions'' filters 
through into these writings in a year or so, I am sure they 
will be brought up in the same light. I hear that, in fact, the 
color revolutions are being discussed in conferences as well. 
It is these sorts of things that make me take the position I 
have taken today.
    Also, I gather impressions from conversations with Chinese 
graduate students here in the United States, those working in 
humanistic fields and social sciences who are reading Chinese 
news on the Web, who are reading Web sites, and so on. A 
comment from one student really struck me. He thoroughly 
believed that the entire body of American-Sinological research, 
particularly research on modern Chinese history, had been 
conducted with a goal of undermining the Chinese state. He 
said, ``Oh, well, of course it is all about strategic goals and 
strategies.'' He believed this. Now, part of this comes from 
the fact that in China, history is very much the handmaiden of 
politics. But another part of it, I think, comes from very 
strong underlying nationalistic belief--which this generation 
of young Chinese holds perhaps more than the Cultural 
Revolution generation--a nationalistic feeling and a distrust 
of foreign motives, when we are presenting what we see as 
friendly, or perhaps stern but friendly, concerns.
    Mr. Foarde. Dr. Starr.
    Mr. Starr. Obviously, this is the official line, and we are 
dealing with a state where that counts. We should not be 
surprised at expressions of high indignation and outrage. The 
official policy of China today is very akin to the official 
policy of the Soviet Union toward minority peoples in its last 
20 years, namely, that with prosperity you will bring about a 
kind of ``merging of peoples'' of their different cultures 
might continue as a kind of ethnographic museum, but on all 
things that count their cultures would have merged with free 
imperial people. Yet this will not happen. The percentage of 
Han Chinese in Xinjiang is less than the percentage of Slavs in 
Kazakhstan at the time of independence. Even if that percent 
greatly increases, as I believe is now inevitable with the 
expansion of the railroad to Kashgar and beyond, there will be 
a crisis.
    Stanley Toops, a scholar at Miami University in Ohio, has 
proven beyond any doubt that when you build a railroad in China 
it leads to large-scale migration, no matter what the 
government's policy is. That being the case, I think you can 
realistically expect that the percentage of Han Chinese will 
increase, the polarization of incomes will increase. I think 
you can expect also, increased tension over water usage, which 
is more severely limited in Xinjiang than anywhere else in 
Central Asia, and national and ethnic tensions will grow. 
Whether it has a religious flavor or not, I am confident that 
this ``national liberation current'' will not go away. If 
Beijing's rule trips or stumbles at any future point, of 
course, then it could become a problem that embraces all China.
    Mr. Foarde. Thank you. I know my colleagues want to ask the 
panel questions, so I am going to pass the questioning on at 
this point.
    Mr. Dorman. I would like to turn over the questioning to 
Dr. Kate Kaup. Before I do that, I think each of you know that 
Kate is responsible for setting up the roundtable. You have 
each met her.
    I would like to mention that, just over a year ago, our 
Chairman tasked John and me with finding someone to assist the 
Commission to better understand minority and autonomy laws and 
policy in China. Kate has been with us just a year now, and 
unfortunately she will be leaving the Commission at the end of 
this month, so this is her last roundtable. I wanted to 
publicly say thanks to Kate for doing a great job over the past 
year.
    Ms. Kaup. Thanks very much.
    Mr. Dorman. With that, I would like to pass the questioning 
to you.
    Ms. Kaup. Thanks, Dave, and thanks to the Commission. It 
has been a very productive year. I would like to thank our 
three panelists for participating today and for providing such 
useful testimony.
    I would like to start by asking Dr. Millward a question, 
and then ask the other panelists to also comment.
    Jim, in your written statement you make four 
recommendations. Your second recommendation notes that many of 
the human rights violations occurring in Xinjiang may actually 
be a result of local corruption rather than being mandated or 
encouraged by central policy. You recommend, therefore, that 
the U.S. stance should be cooperative, and that we might 
consider engaging in more local development initiatives, 
granting minorities' business grants, and aiding in Chinese 
state programs to defend minority interests and ethnic civil 
rights. I have two related questions for you, and would be 
interested in hearing comments from our other panelists also.
    First, are there any signs that the central government is 
trying to step in to stop local corruption and local 
governments' violations of minority rights? Second, as Dr. 
Starr pointed out in his testimony, the Chinese Government has 
cracked down on local NGOs and on foreign NGO initiatives in 
Xinjiang to such a degree that it is practically impossible now 
for international NGOs to enter into Xinjiang. Given this type 
of repressive environment, I am wondering if you could expand a 
bit on your recommendation and give us some idea of how the 
United States and the international community, as well as 
minorities in Xinjiang themselves, might try to strengthen 
local initiatives and cooperative programs.
    Mr. Millward. All right. First of all, let me slightly 
modify the way you characterized my statement. I was not 
implying that human rights violations, in general, are purely a 
local phenomenon. In that comment, I was speaking primarily 
about more economic issues, issues of hiring, perhaps, issues 
of urban renewal, for example, as I said before, that sort of 
thing.
    So to answer the first part of your question then, again, 
my sense is based on anecdotal information. One thing we have 
to remember in dealing with China is the very real tension 
between the locality and the center, the region and the center. 
The dynamic is often that things go wrong on a local level, and 
if they go wrong enough, then the center will step in and do 
something about it. But, generally, the center is limited in 
what it can find out about events on a local level because it 
is listening to information that is filtered up through the 
chain of command, which is precisely the Party and the 
government itself. So any sense that China has some kind of 
totalitarian control over what is going on is false, 
particularly in a region as far away as Xinjiang with such 
particular local problems--that is not the case at all.
    One example I can give is the one that I already mentioned 
of urban renewal and development efforts in the city of 
Kashgar, which were finally slowed down when the center found 
out some of the ethnic implications and the extent of local 
concern about this plan. I believe that there are other cases 
like that. Certainly it is not in the central state's interests 
to let the urban populations of Xinjiang's cities become too 
alienated over this sort of thing. I do not have enough 
information to really go any further than that.
    Now, as far as the willingness of Xinjiang authorities to 
allow foreign initiatives and NGOs to operate there, obviously 
this is a big problem. I think the current situation has become 
extremely tense and the Xinjiang authorities, in particular, 
are very concerned about interacting with foreign entities 
unless they are simply investors. This may or may not last.
    I know there was some disagreement between Xinjiang 
officials and Beijing over the treatment of the Rebiya Kadeer 
case, and I think that is an indication of disagreements at a 
high level in China over Xinjiang policy. So, it may be that 
other sorts of foreign initiatives and contacts may become 
possible in the future; certainly, if presented in a more 
cooperative manner, they are more likely to go through.
    Environmental issues might be a good way to start this 
because this is an issue that Xinjiang authorities recognize as 
very serious. If there are ways, in a scientific or non-
political way, by which environmental issues can be dealt with 
and in which NGOs or U.S. organizations can offer assistance, 
then that might be a way into this problem.
    Mr. Starr. I would not be too sanguine. I think your point 
that many of the specific problems trace to clumsy actions by 
local administrators is obviously true. This is always the 
case.
    In the independent parts of Central Asia, the training of 
local administrators offers a great opportunity to bolster 
human rights and democratization. Unfortunately, the United 
States has not undertaken this, nor have the Europeans.
    The people with the greatest capacity to mess up democracy 
and human and civil rights are the local administrators 
assigned there by the Ministry of Internal Affairs.
    The United States has refused to work with ministerial 
bureaucrats in many countries of Central Asia because we 
thought we could solve all problems by working through NGOs. 
Yet NGOs are perceived in terribly negative terms in many 
places now, because they are hiring a lot of rich kids from the 
capitals, giving them Toyota Land Cruisers with radio 
telephones, and then those NGO staffers flaunt their foreign 
wealth before the local civil servants, all of whom are 
miserably paid, totally untrained, and in dead-end jobs to 
which there is no alternative. Naturally, local officials come 
to hate these people from NGOs.
    Now we have a great opportunity, in all the independent 
states of Central Asia and the Caucasus, to work with the 
ministries of internal affairs, train its local administrators, 
and give them better pay, as we in fact are doing in 
Afghanistan. This will fundamentally change the environment. It 
is our utter refusal to do this in Uzbekistan that is largely 
responsible for the mess that we have helped create there.
    Now, in Xinjiang, the situation is totally different, 
unfortunately. You still have a Communist Party that has de 
facto and de jure control. Normal citizens' rights do not exist 
in Xinjiang. The whole web of juridical and other institutions 
that now exist in the rest of the region are absent here. 
Therefore, I would suspect that not only would Chinese 
officialdom be unwilling to engage in the kind of collaboration 
I have mentioned, but would see it as extremely risky.
    What I am suggesting is, that at the end of the day, the 
fundamentals do count. Even though there is a lot of money 
flowing in Xinjiang today, thanks to oil and gas; the old 
fundamentals remain. The Chinese Government understands that 
its citizens' rights are limited, which accounts for its 
extreme sensitivity.
    Mr. Southerland. I agree with Professor Millward, that 
there is no unified, totalitarian approach. I think the 
influence of the military and the state security forces in 
Xinjiang has grown over the years, so anything you try to do 
could be partially negated by their influence.
    Since the recent events in Central Asia, the presence of 
these heavy-handed types has grown in Xinjiang. You see more 
military, more displays of force, such as you saw recently 
during the anniversary of the, what was it, 50th year founding 
of the Xinjiang Uighur Autonomous Region. They are a big factor 
in all of this. So, I would not be optimistic at all that you 
could engage in--I mean, I think it is a good idea to try to 
share in development initiatives, but I would not be 
optimistic, partly because of the suspicion of the United 
States and so forth.
    I think that you are not going to see an improvement in the 
rule of law, which is partly what you are talking about, with 
the local administrators, because I noticed, for the media, 
which is what I study, that you do not have cases such as you 
have in the rest of China, where people are wrongly accused of 
committing a crime and then are somehow redeemed when the 
father or the wife goes on the petitioning trail. You do have 
cases elsewhere in China where they actually can get a guy out 
of jail who was totally wrongly accused. I do not see that 
happening in Xinjiang. So, again, this rule of law, which is a 
very good area to work in, I do not think is susceptible to our 
influence, or anybody else's influence from the outside.
    Mr. Dorman. Good. Thank you. Next, I would like to 
recognize Steve Marshall, who is a Senior Advisor to the 
Commission. Steve.
    Mr. Marshall. Very interesting. I cover Tibet and I see a 
lot of interesting parallels, and some very important 
differences, too.
    I would like to ask a question about security versus 
rights, and then tie that into the existing structure of 
autonomy law in China. On one hand, you have China, a nation, a 
state, that ideally would probably like to do anything they 
think is necessary to protect the security interests of the 
state, their ability to promote policy, and so on. On the other 
hand, you have individuals, groups of individuals, ethnic 
groups, who would probably equally like to do whatever they 
could to promote what they feel are their interests. So, on one 
hand, you could have tyranny on the part of the state, or you 
could have anarchy or a broken state on the other hand.
    Now, ultimately you are going to have something in the 
middle, trying to protect the interests of the state, and 
trying to protect the interests of groups and individuals. In 
China, in areas like Xinjiang, the main law addressing that is 
the Autonomy Law. Do you see any part of what that law covers 
that could provide some relief--realistically provide some 
relief--in either the civil or the religious part of life that 
Uighurs could enjoy, and that other ethnic groups could enjoy 
there, that would not endanger--realistically endanger--state 
security and therefore draw pressure from the Chinese 
Government? Is there anything within that law that you perceive 
as a means by which Uighurs could, for example, have some 
space?
    Mr. Starr. The flip-flops of Chinese policy are really a 
caricature of our notion of Chinese policy as a rather stately 
and long-term affair.
    It has not been this way in Xinjiang. The older generation 
remembers the tough old times. A middle generation, now in full 
bloom of advanced adulthood, has known a relatively open 
situation. And then you have those who considered the very grim 
circumstances of the past seven, eight years to be normal.
    Chinese officials are worried--and I think with some 
reason--that better governance and greater autonomy will not 
elicit a burst of gratitude, but rather will elicit much more 
explicit demands for the political and ethnic autonomy that is 
embodied in Xinjiang's official name. That is the terrible 
paradox the Chinese have created for themselves.
    Mr. Millward. I agree that it is a paradox. In the 1950s, 
when initially promulgated, before the leftward lurch from the 
late 1950s and the Great Leap Forward and the Cultural 
Revolution after that, the way in which the autonomy law was 
initially implemented left open a possibility of a real 
autonomy in the region, more or less as it is implied by the 
word ``autonomy'' and in terms of the law. There were numerical 
quotas stated for numbers of 
nationality--non-Han--cadres in government. The number of 
Uighur cadres in south Xinjiang Government, for example, was 
meant to exceed that of Han Chinese. So, there was a very 
idealistic program. Obviously, that was never fully 
implemented, and the Chinese Government, particularly since the 
1980s, has been retreating very quickly from that. Some Han 
scholars are writing in appalled tones that such quotas were 
ever even suggested.
    I read one re-interpretation of the autonomy law. The 
Chinese term for autonomy is ``zizhi,'' self-rule. This scholar 
wrote that in the past this term was completely misinterpreted 
in China by 
Chinese authorities. He now argues that a ``Zizhiqu,'' or a 
self-governing region, does not mean it is going to be governed 
by the predominant ``nationality'' there in that region. 
Rather, it means it is to be governed by all the 
``nationalities'' of that region. In Xinjiang, as we know, the 
Han are now 40 percent. So, with that kind of sleight of hand, 
he turned the whole initial rationale of the autonomy system on 
its head.
    Ultimately, this goes back to a Stalinist approach to 
nationality issues. The very term ``nationality,'' which has 
always been a tricky one to translate, was semantically 
borrowed from Russian. We see another way in which China is 
retreating from its early policies toward minority peoples in 
how they are now translating the Chinese term ``minzu,'' which 
they used to call ``nationality'' and infused with political 
meaning. They are now translating the same term as ``ethnic'' 
or ``ethnic group.'' The official name of what used to be the 
State Nationality Affairs Council is now the State Ethnic 
Affairs Council.
    Well, what does this mean? This means, to me, I think, that 
they are adopting a more American-style approach to ethnic 
difference within a multi-ethnic, multi-cultural society and 
retreating from the political implications of the nationality 
system--with the implicit promise of certain rights to a 
certain territory, which they initially borrowed from the 
Soviets. That being the case, although I like the idea of 
autonomy as perhaps a solution to the problems in Xinjiang 
today, if only they would implement it as promised, I see that 
as unrealistic, given how quickly the Chinese have been 
retreating from the earlier meanings and uses of the concept.
    Mr. Marshall. Thanks. Dan?
    Mr. Southerland. Nothing to add to that.
    Mr. Starr. Just a note. What we are discussing is a problem 
of imperial policy, bluntly put. It must be understood to the 
broader framework. In the Soviet case, after a very tough 
period of rule under Stalin, in the 1970s and early 1980s 
Moscow told all the non-Russians to rule themselves. They did. 
This produced grand corruption, and a not bad life for many. 
Then Gorbachev showed up and declared that ``we have got to 
clean this up.'' The ensuing purge created that genuine passion 
for independence that we observe all over the region today.
    I do not see a comfortable dynamic here. If there is any 
ray of hope from the Chinese perspective, it is that Xinjiang 
as an autonomous region, has some legal grounds for asking to 
be treated differently from the rest of the PRC society. It is 
not clear that the Chinese will perceive this possibility. So 
far, the answer is definitely no. But this constitutes a legal 
rationale for offering Xinjiang a degree of autonomy that is 
not possible for other provincial units of China.
    Mr. Marshall. Thank you.
    Mr. Dorman. I would like to recognize Pam Phan, who is a 
Commission Counsel and handles the Commission's criminal law 
portfolio. Pam.
    Ms. Phan. Thank you to the panelists for coming this 
morning.
    Actually, I am interested in, and would like to pose 
questions broadly to the entire panel regarding, two processes. 
The first is the defining of crimes. The second is the 
punishing of criminal activity. I am going to go more 
specifically into those questions.
    Dr. Starr, you had mentioned that as recently as this week, 
there has been a reaffirmation of the ``Strike Hard''--yan da--
campaign in Xinjiang. The question that I would like to pose 
with respect to that is: is this ``Strike Hard'' campaign 
focusing on ordinary crimes of rape, murder, arson, etc., or is 
the focus on activity that the Chinese Government chooses to 
characterize or define as crimes of terrorism, crimes of 
subversion, crimes of disruption of public order? So in other 
words, is the ``Strike Hard'' campaign really being used as a 
pretext to crack down on activities that are being engaged in 
by Uighurs?
    With respect to the punishing of criminal activities, Mr. 
Southerland, you had mentioned that in Xinjiang we have seen 
executions of political prisoners, as well as forced labor, not 
occurring elsewhere. I would just like to see if anyone on the 
panel could elaborate on those developments.
    Mr. Starr. A further note on the ``Strike Hard'' policy: it 
is 
focused above all on separatism, with only a subordinate role 
for religious extremism.
    Mr. Southerland. I would agree. The yan da campaign is 
obviously aimed at suspicious characters, not at what we would 
normally consider, let us say, ordinary crimes such as rape 
cases and so forth. I do not think there is any doubt of that. 
I think it is also meant to instill a certain amount of fear 
and trembling on the part of people that it is aimed at, so it 
is like a show of force, partly. There is a constant ``Strike 
Hard'' campaign going on anyway, it is just that they make 
periodic announcements. I know there was an earlier one, and 
now we had trouble figuring out whether the latest one is a 
totally new campaign or just a continuation. I see it as sort 
of a steady part of this atmosphere.
    On the forced labor issue, we know that this is happening 
from villagers, who call us up and tell us that they are being 
told to turn out for a certain period of time and work on a 
road, or work on a construction site, or a development site, 
some of which results in Uighur villagers being displaced or 
basically thrown off their land. It also extends during the 
summer months, during the cotton harvest, even to 
schoolchildren.
    We recently got a story about kids being sent out to these 
camps where they have to work, not quite the same as the adult 
forced labor, but another version of this which I had never 
seen occurring elsewhere in China, since the Cultural 
Revolution, anyway. So, it is just all part of the pretty harsh 
atmosphere that I think we have tried to lay out for you.
    Ms. Phan. Thank you.
    Mr. Dorman. Next, I would like to turn the questioning over 
to Carl Minzner, who is a Senior Counsel on the Commission. 
Carl.
    Mr. Minzner. Thanks very much to all three panelists. I 
have a two-part question. First, often when people talk about 
Xinjiang, there is a focus on the Han and the Uighur 
populations. While those two are the largest populations, there 
are also Kazakh, Kyrgyz, Tajik, and a large number of other 
minorities as well. How are they faring in the current climate? 
To what extent is the crackdown that you have all mentioned 
directed primarily at Uighurs as opposed to other minorities?
    My second question, which is both for Professor Millward 
and for Professor Starr, is: you were talking about improved 
implementation of the autonomy laws as perhaps one possible 
solution toward addressing some of the problems occurring in 
Xinjiang. What would this imply for these other minorities?
    One thing that you saw in the Soviet Union was that as 
Georgia moved toward more of an autonomous, independent status, 
there were groups such as the South Ossetians that started 
making claims that their rights were not being protected. So 
what would a move toward autonomy, under the Regional Ethnic 
Autonomy Law, mean for these other minorities, and what would 
their attitudes be toward this type of move?
    Mr. Starr. With regard to these other minorities, first of 
all, they, like the Uighurs, have been pushed out of the trade 
with neighboring countries with which they would normally have 
had close links. All such trade is in the hands of the Han 
Chinese today. I know the owner of the biggest market in 
Central Asia, Dardoi Market in Bishkele, Kyrgyzstan. He reports 
that all the traders from the PRC there now are Han Chinese.
    Second, the Shanghai Cooperation Organization has, as part 
of its mandate, constrained the sovereignty of the three 
adjoining states, Tajikistan, Kyrgyzstan, and Kazakhstan, to 
the degree that citizens with full rights in those states have 
actually been imprisoned and turned over to the Chinese for 
activities on their territory. This is not a complete answer, 
but I would say the evidence is that there is a kind of equal 
opportunity control here.
    Now, with regard to your allusion to Ossetia, I do not 
think that is quite the case. The South Ossetian crisis exists 
because the Russians have used it as a lever against Georgia, 
just as the Russians handed out Soviet passports to Kazakhs and 
Kyrgyz in Xinjiang in the 1960s, as a way of getting at the 
government in Beijing. For example, in Germany, in Saxony, 
there is a very ancient, partly Slavic people called Sorbs. 
Anybody with an I-E-T-Z-S-C-H-E in his name is a Sorb. 
Nietzsche was obviously a Sorb, and they were totally absorbed 
into the German people. There is something like that happening 
among Turkic peoples of Xinjiang, in that the term ``Uighur'' 
is coming to have, almost, a meaning of ``Turkic.'' Now, I do 
not know how far this will go. Clearly, though, ``Uighur'' has 
become a kind of organizing label for Turkic peoples of the 
region. There are even Tajiks who call themselves ``Uighur'' 
and they are not even Turkic. In the process, certain 
identities and ethnicities are being marginalized.
    Mr. Millward. Just talking about Central Asia generally, I 
think there is a phenomenon we might call ``crypto-Uighur.'' 
Particularly in Uzbekistan, where, unlike Kazakhstan and 
Kyrgyzstan, the Uighur groups and minorities in Soviet times 
and since were not as well treated, the Uighur identity was not 
as well recognized. Everyone there is Uzbek. Then something 
about Xinjiang or Uighurs will come up and they will say, ``Oh, 
well, actually I am a Uighur.'' There is a famous singer for 
whom this was the case--it suddenly emerged that she was 
Uighur, despite being a famous Uzbek singer who sung the 
national anthem at public events. I notice this quite a bit. 
So, that may be part of what Fred is noticing here. Besides 
Kazakhs, Kyrgyz, other groups in Xinjiang in 
general, this is an area where we do not have a great deal of 
information, in part because I think everyone is looking at the 
larger population group of the Uighurs and has been, to be 
honest, neglecting the situations of the smaller groups.
    The general impression is that most of the tension is 
reserved for Uighur, or is a question of Uighur-Han relations. 
In private, random conversations with some Kazakhs, I heard 
negative comments: ``Oh, the Uighurs do this, the Uighurs do 
that, the Uighurs do not have culture,'' and so on, in a way 
that surprised me, or would have surprised me if I had expected 
a Turkic solidarity or a Muslim solidarity. Indeed, there have 
been state policies aimed at 
dividing these groups.
    This leads me to the second half of your question, which is 
the implication of autonomy laws for other minorities. Even as 
it was initially designed, the autonomy law in Xinjiang, whose 
inauguration 50 years ago we just celebrated, was gerrymandered 
in such a way as to undermine the potentiality of Uighur 
control. Although it is officially called ``the Xinjiang Uighur 
Autonomous Region'' but, there are no county-level districts 
which are Uighur autonomous counties. The autonomous districts 
were created in the 1950s from the bottom up, with each 
district of the county, prefectural, and other levels given the 
names of other groups--not ``Uighur.'' It is only the region as 
a whole that is called ``Uighur.''
    Now, obviously if you were to fully implement this, and if 
each autonomous district was supposed to be governed by the 
name on the doorplate, then in fact you would have no Uighur 
counties at all, no local level government by Uighurs at all. 
In fact, that is not the case--there are many Uighur local 
officials, but it shows how the system, as it was designed, was 
never really intended to be implemented in such a way that a 
geographic region named for a ``nationality'' is administered 
predominantly by that nationality. In fact, the system was used 
very strategically by the state to play off one minority 
against another. In this regard, actually, the nationality 
autonomy system has structurally been to the benefit, at least 
to certain members of other minority groups, at certain times.
    Mr. Southerland. I really cannot add much to that, except 
that I would agree that the government has tried to play off 
one minority against another. I would like to see a study of 
how the Kazakhs, Kyrgyz, and Tajik have done in Xinjiang. I 
suspect we would not see any great success stories in their 
case either, because historically, if you look at people 
leaving the Xinjiang region, it includes also a number of 
Kazakhs, for example, who have left because it was more 
comfortable to go to another country. I suspect that Kazakh, 
Kyrgyz, Tajik government positions in Xinjiang that have any 
real power, are pretty limited. So, I do not think it is a 
great success story, although it may be that in some of these 
autonomous counties they have done a little better than others.
    Mr. Dorman. Good. Thank you.
    We have just five minutes left. But based on the notes that 
are being passed to me, I think we could easily fill 90 more 
minutes with questions.
    What I will do, is turn the last five minutes to Dr. Kaup, 
and that might be enough time for a question or two.
    Ms. Kaup. I would like to get two questions in. The State 
Ethnic Affairs Commission [SEAC] Web site devotes an entire 
section to explaining the government's policy of shipping Han 
cadres into the border areas. The first priority of the policy, 
as stated by the SEAC, is for these Han Chinese to ``combat 
domestic and foreign hostile forces' vain attempts to split the 
motherland.'' It also justifies sending Han Chinese into the 
border regions to help lead economic development and to assume 
leadership positions for which there are not enough educated 
minorities to fill.
    So I have two related questions. The first is that I gather 
from your testimony thus far that you think perhaps the 
economic development strategy that these Han cadres are being 
sent in to lead is not successfully integrating the minorities 
as the government proposed. What changes or additions would you 
recommend, and why?
    Relatedly, is the government doing all that it can to 
promote education among ethnic minorities to ensure that they 
get an even chance to secure good jobs in an effort to weaken 
major ethnic tensions?
    Mr. Starr. Well, I should not use the word ``paradox'' 
again but this situation is full of paradoxes. On the one hand, 
as was said earlier, this is a government that has 
extraordinary power on the ground, de jure and de facto. Yet, 
at the same time, it does not control some very obvious things, 
such as the movement of peoples within its borders. It would be 
nice if one thought migration to Xinjiang is under the control 
of government forces, but it is not.
    These forces are so big that government cannot control 
them. Again, I cite Toops on the demographic impact of 
railroads. To repeat, I think the potential for a new flood of 
immigrants to Xinjiang is very real. I do not think this is 
something the government has created or that it would be able 
to stop it.
    Similarly, I think that the basic policy changes that are 
needed are those that are required in any larger polity that is 
extraordinarily centralized. I think that the fate of the 
Uighurs will remain a subset of the fate of China as a whole.
    No one here has argued for the likelihood that Beijing will 
make an exception of Xinjiang and grant it greater autonomy, 
even though it has a rationale for doing so readily at hand. No 
one is arguing this, and I do not know anyone who does so.
    Therefore, the subject that you are convening here today is 
no longer just the fate or governance in Xinjiang. It concerns 
the future of government as such in the People's Republic of 
China. Will there even be a degree of decentralization and 
self-government? If so, the natural result of such a change in 
Xinjiang that would be along the direction of your question. If 
decentralization and self-government go nowhere in China as a 
whole, do not expect for Beijing to make an exception of 
Xinjiang.
    Mr. Millward. Two very fraught issues here, and the word 
``paradox'' comes to my mind again.
    First of all, on the question of population flows, it is a 
complicated situation. Xinjiang, on the one hand, suffers from 
brain drain, to the extent that those people, be they Uighur, 
or particularly Han, with the economic and intellectual 
wherewithal to move east to China proper, tend to do so. This 
is a problem on which they have commented. It does affect the 
ability to develop the area. On the other hand, Xinjiang also 
suffers--or benefits, depending on how you look at it--from the 
flow of labor from the east into Xinjiang. This is the aspect 
of this issue that Western commentators have most focused on. 
We tend to decry such immigration as a deliberate attempt to 
submerge the Uighur population in a grand sea of Han Chinese.
    I, too, have enough sense of Uighur culture and of the 
region's particular characteristics to feel wistful at the 
changes you can see happening to a city like Kashgar, since the 
railroad has been opened, with an influx of Han population. But 
I think the United States really has to think about how we 
express concern over this issue, because we have wanted free 
movement of people in China. We want a free labor market. We do 
not advocate controls on people moving around. This was the 
bad, old China, now we are seeing the results of the good, new 
China. We do not maintain in this country, any more, ethnic 
regional enclaves.
    Mr. Starr. Well, there are the Indian territories.
    Mr. Millward. Well, I should say we do not create them any 
more. But if something like that were to come up again, it 
might be a question. I am not sure that the model of Indian 
territories is one that we would necessarily want to suggest to 
China. It is a question. This is a problem.
    A very similar problem concerns that of education. Chinese 
officials would answer your question about whether or not they 
are doing their best to raise the standards of living, the 
educational level of people in Xinjiang, and they would say, 
``Look, we have a new program to render more uniform the 
educational system so that all people in Xinjiang are literate 
in Chinese.'' Well, as we know, this has been a very 
controversial change in the educational system. But again, we 
have had the same debates in the United States over bilingual 
education.
    By and large, over the last 50 years, China has been, if 
``liberal'' is the word you could use, very liberal in 
permitting and encouraging bilingual education and a 
multilingual system at the official level, something which the 
United States has not done.
    There are, of course, arguments both ways. Obviously, 
knowledge of the majority language, the language of official 
business, the language of commerce, is important to members of 
any society if one is to get ahead. On the other hand, no one 
wants to have the language forced upon you or your children.
    I do not have an easy answer to this, except to say that by 
ratcheting up tensions over these issues and in an automatic 
sort of way implying that these policies are aimed at some sort 
of cultural genocide, I do not think those kinds of accusations 
are going to be useful.
    Mr. Dorman. I think, with that, we will have to, 
unfortunately, call the roundtable to an end. I will apologize 
to our panelists for keeping you five minutes longer than 90 
minutes. It was certainly a very important conversation. So, 
with that, I will call this roundtable to a close.
    Thank you very much.
    [Whereupon, at 11:35 a.m. the roundtable was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of James A. Millward

                           NOVEMBER 16, 2005

    One of the many international repercussions of the events of 11 
September 2001, was a shift in the official PRC public position with 
regard to separatism in Xinjiang. From a stance generally playing down 
the threat of violent unrest in the region (no doubt in the interest of 
encouraging foreign investment), PRC and Xinjiang authorities instead 
chose to highlight possible linkages between Uyghur separatism and 
international Islamist movements and Al Qa'ida. While this shift has 
been widely seen as an attempt to seek ``cover'' for a crackdown on 
Uyghurs in Xinjiang that has resulted in many human rights abuses, in 
fact, that crackdown had been ongoing for several years before 9-11. 
Less often noted is the fact that the shift occurred at the precise 
moment when the United States inaugurated a robust and unprecedented 
military presence in former-Soviet Central Asia--and China's backyard. 
Though the official Chinese reaction to the advent of U.S. military 
bases in Central Asia was muted, Beijing and Urumchi almost certainly 
greeted this development with great alarm.
    Outside of China, many scholars and observers of Xinjiang believe 
that the PRC has exaggerated the extent of the current terrorist threat 
in Xinjiang and mischaracterized the nature of Uyghur separatist 
dissent as exclusively Islamist and terrorist. I myself have argued 
that while several violent separatist incidents and demonstrations that 
turned violent occurred between 1990 and 1997, the situation since then 
has been calmer, probably due to the effectiveness of security 
operations in Xinjiang. Likewise, while some Uyghur groups organized 
and publicized their cause from Kazakhstan and Kyrgyzstan in the 1980s 
and 1990s, the formation of the SCO and China's growing trade, 
diplomatic and security arrangements with the Central Asian states have 
largely curtailed Uyghur freedom of organization in the region, and 
effectively eliminated the threat of cross-border separatist enclaves.
    Nevertheless, the PRC remains extremely concerned over the region, 
ratcheting up restrictions on the practice of Islam in Xinjiang (but 
not elsewhere in China), policing Uyghur cultural expression, 
prohibiting even peaceful expression of dissent, and in other ways 
continuing a crackdown that produces obvious disaffection among Uyghur 
and other non-Han ethnic groups in the region, not to mention 
continuing criticism from abroad.
    The question, then, is why, given robust economic growth and 
ostensible stability in Xinjiang, the PRC remains so worried about it 
that its policies there invite international opprobrium and exacerbate 
the very ethnic tensions it hopes to diffuse? One answer may be that 
the threat of a militant separatist or terrorist campaign is actually 
greater than it appears. There may be secret information shedding light 
on this, but from the open source materials available to me, it does 
not seem to be the case.
    Here I wish to focus on another possible answer. Chinese insecurity 
about Xinjiang is based on a 200-year history of outside involvement 
and intervention in this frontier region. The Chinese view of the 
region's history stresses foreign interference above all else as the 
source of trouble in Xinjiang from the 18th century to the present. 
Against this background, and viewing Xinjiang's past as they do, 
Chinese see both the U.S. military presence in Central and South Asia, 
and the precedent of the ``color revolutions,'' as a real threat to 
security in Xinjiang.
     historical review: a focus on foreign involvement in xinjiang
    The modern epoch of Chinese control over the Xinjiang region began 
in the mid-eighteenth century with the Manchu Qing dynasty's conquest 
of the region. At the time, the Qianlong emperor justified Xinjiang 
conquest as a defensive necessity arising from a decades-long war with 
the Zunghar Mongols. Following the conquest, the Qing established an 
administration in Xinjiang and encouraged settlement and agricultural 
reclamation by Han and Hui Chinese. In this respect, Beijing's approach 
to Xinjiang in the 18th and 19th centuries more resembles Russian 
eastward expansion into Siberia, or even the westward expansion of 
European settlers across North America, than it does the episodes of 
Chinese projection of power into the Xinjiang region from over a 
millennium earlier.
    Though it is often stated in western writings that the Muslim 
occupants of Xinjiang chafed under and frequently rebelled against Qing 
rule, troubles in the region in imperial times resulted more often from 
invasion than from local rebellion. From the early through mid-
nineteenth century, Qing rule in Xinjiang was disrupted several times 
by invasions from Khokand (in modern Uzbekistan). The spark for a major 
rebellion in the 1860s-1870s was domestic and ethno-religious; but this 
movement by local Chinese Muslims (Hui) and Uyghurs was soon taken over 
by Yaqub Beg, an adventurer from Khokand, who imposed a regime largely 
with his own Central Asian troops. The Ottoman empire and British 
empire opened contacts with Yaqub Beg's emirate, and London attempted 
to broker an agreement between the Qing and Yaqub Beg's representatives 
to establish an independent buffer state under Yaqub Beg's rule in 
Xinjiang. Meanwhile, Tsarist Russia took advantage of the disruption to 
annex much of northern Xinjiang.
    In late nineteenth-century Qing court debates over whether to 
reconquer Xinjiang, advocates of reconquest echoed the earlier 
arguments of the Qianlong emperor that control of the Xinjiang was 
vital to the security of the capital. This point of view won the day, 
bolstered by the growing threat from Russia, which had expanded into 
Manchuria and only returned northern Xinjiang to the Qing after 
concerted diplomatic efforts backed up by a Qing threat of force. 
Russia nonetheless extracted many commercial concessions, and over 
subsequent decades aggressively expanded its economic interests in 
Xinjiang.
    The transition from Qing imperial to Chinese republican rule was 
accompanied in Xinjiang, as elsewhere in China, by devolution to 
warlord control after 1911. Two decades of misrule led to rebellion in 
the 1930s and the formation in 1933 of the short-lived Eastern 
Turkestan Republic in Kashgar (southwestern Xinjiang). This was a 
local, largely secularist republican movement, the culmination of years 
of Uyghur intellectual ferment inspired by Islamic modernist trends 
emanating from Russia and Turkey and disseminated through new schools 
in Xinjiang. Turkey 
expressed solidarity with the new ETR, but provided no tangible aid. 
Still, this Turkish connection has led Chinese scholars ever since to 
brand Uyghur separatist movements ``pan-Turkic.''
    Other states likewise took interest in Xinjiang during the 
tumultuous 1930s. Japan followed events there closely, and its Kwantung 
Army even drew up a personnel roster for the puppet government it hoped 
to establish in Xinjiang. This was mere fantasy, but Soviet 
intervention was very real: Soviet air power, advisers and troops 
helped quell the various warring factions in Xinjiang and establish a 
client, Sheng Shicai, in the Governor's office in Urumchi. Soviet ties 
with Xinjiang continued to expand, especially in the north, which grew 
increasingly integrated economically with the Soviet Union.
    The Nationalist (Guomindang) Chinese government managed to 
reestablish some influence in Xinjiang in the early 1940s. However, 
northern Xinjiang was soon roiled by an anti-Chinese rebellion that 
gave birth to another separatist government. This movement began 
Islamic and strongly anti-Chinese; however, it soon fell under Soviet 
influence if not outright control, and turned secular and socialist and 
scaled back its initial anti-Chinese vitriol. This new government, 
initially also known as the Eastern Turkestan Republic, governed 
northern Xinjiang from 1944 until 1949. PRC scholars and ideologues 
officially treat this ``Three Districts Revolution,'' as it is known, 
as a chapter in the Chinese revolution, and represent the Soviet role 
as fraternal and secondary to the efforts of Chinese revolutionaries. 
Privately, however, Chinese who know about it regard this second ETR as 
a Soviet effort to collude with separatists to carve a pro-Soviet 
client state much like the Republic of Mongolia out of China's Xinjiang 
flank.
    Communist Chinese assumption of power in Xinjiang in 1949 was 
uncontested, as the ETR in the north was a socialist ally, and the 
Guomindang general in charge of southern Xinjiang opted to surrender 
the region and his troops. The one group that did openly resist, 
however, were Kazakhs under Osman Batur. Chinese scholars and 
politicians make much of the fact that the last U.S. official in the 
Ti-hwa (Urumchi) consulate, CIA agent Douglas MacKiernan, met with 
Osman before the Communist takeover and fled to Osman's camp on the eve 
of the PLA arrival in Urumchi. Though the PLA easily defeated Osman, 
MacKiernan's involvement is seen as a U.S. plot to support an anti-
Communist guerilla resistance in Xinjiang similar to the later CIA-
sponsored resistance in Tibet.
    During the 1950s, PRC minority nationality policies in Xinjiang 
were remarkably liberal and in theory culturally pluralistic. During 
the Great Leap and Cultural Revolution eras, however, and especially 
following the Sino-Soviet split, pluralistic policies gave way to a 
wave of Han chauvinism and the lurch toward radical Maoism. Even as 
Uyghur and other ethnic cadres were being purged for alleged Soviet 
sympathies, the USSR seemed to lend credence to those charges by 
massing troops and sponsoring a ``Xinjiang Minority Refugee Army'' to 
engage in maneuvers along the Sino-Soviet frontier. There were nearly 
continuous skirmishes, and some serious clashes, on the Xinjiang border 
from the late 1960s through the early 1970s.

                               CONCLUSION

    It is a cliche, but nonetheless true, that the Chinese pay more 
attention to history than we do in the United States. The narrative I 
have presented above is factual, if one-sided (a more nuanced version 
of Xinjiang's past, one that includes a Uyghur perspective, would of 
course be more accurate). It represents how Chinese view the region's 
history, and in China more polemical versions of this narrative, 
stressing ceaseless foreign efforts to ``split Xinjiang from the great 
family of the motherland,'' are staple fare in history texts, on web 
sites, and in the speeches of political leaders. Through the 1980s and 
1990s Chinese officials routinely insinuated that U.S. machinations 
underlay Uyghur separatist sentiment. Many Chinese believe this. 
Chinese scholars writing on contemporary Xinjiang regularly reference 
the NATO intervention in Kosovo and, now, the ``color revolutions,'' in 
discussing the international context of Xinjiang separatism. I have no 
reason to doubt their sincerity on this point either.
    I do not intend to justify draconian policies in Xinjiang by saying 
they derive from a skewed understanding of history. Nevertheless, if we 
recognize the long history of foreign involvement in the Xinjiang 
region, and understand that many Chinese leaders believe their own 
propagandistic polemics of foreign threat, we may better understand 
what seems like intransigence with regard to Xinjiang. Moreover, we may 
see how the advent of U.S. military bases in Central Asia and 
Afghanistan, enhanced U.S. military cooperation with Pakistan and 
India, together with the example of American involvement in the ``color 
revolutions'' in former Soviet lands, could exacerbate Chinese 
anxieties. Finally, by understanding how Chinese view Xinjiang security 
against this historical background of foreign involvement and 
intervention, we may learn to shape our expressions of concern in more 
effective ways.
    What might some of those ways be?
    <bullet> Human rights: Continued vocal, high-level expressions of 
concern over human rights, civil rights, religious rights and cultural 
autonomy for Uyghurs and other groups in Xinjiang, such as those 
expressed in the reports of the Congressional Executive Commission, are 
important and effective. Efforts by the U.S. State Department and NGOs 
have achieved real successes both in helping individual prisoners of 
conscience (Rabiya Kadeer) and in informing an international public 
about Xinjiang conditions. Tursunjan Emet, who has recently been 
imprisoned for ten years for writing a story about a blue pigeon, might 
be a good next candidate for special attention. Literature is not 
terrorism.
    <bullet> Development: Uyghurs in Xinjiang and their supporters 
abroad frequently complain about inequalities arising from the rapid 
development of Xinjiang, in particular regarding allocation of jobs and 
resources to Han versus other ethnic groups and the urban renewal 
efforts. Many of these problems involve racial discrimination and local 
corruption, and are deplorable, if not alien to our own experience in 
the United States. By treating them as part of a master plan emanating 
from Beijing, however, we do not help the situation. The U.S. posture 
here should be constructive: sharing experience in local development 
initiatives, minority business grants and other state programs to 
defend minority and ethnic civil rights will be more effective than 
broad accusations.
    <bullet> Chinese migration into Xinjiang: reports by human rights 
groups and by this Commission have pointed out examples of the 
recruitment of Han laborers and settlers to move to Xinjiang. Insofar 
as these are official policies, they merit criticism as 
counterproductive to the very goals of development and raised standards 
of living for all Xinjiang residents that the PRC espouses. But 
expressions of outrage at the very fact that Han Chinese are moving 
into Xinjiang may be misplaced. It is common to cite the statistic that 
Han now represent over 40 percent of the Xinjiang population, compared 
to only 5 percent in 1949. However, Uyghurs are not dying out. While 
their relative proportion of the Xinjiang population has declined, in 
absolute numbers they have nearly tripled since 1949. The United States 
supports the lifting of Chinese controls on residence, the rights to 
internal travel, and the creation of a free labor market. In the United 
States, we would not now advocate or create exclusive ethnic or racial 
territorial enclaves--would we suggest that the PRC do so in Xinjiang? 
We cannot reasonably insist that Han be excluded from a province 
comprising a sixth of PRC territory. There are, however, severe 
environmental restraints on development in many parts of Xinjiang, and 
on these grounds we could suggest that a rational development strategy 
would not involve massive in-migration to a desertifying, water-poor 
region.
    <bullet> Security: It is not constructive to accuse the PRC of a 
lack of transparency or excessive military budgets while the United 
States is simultaneously expanding its military presence in Central and 
South Asia. We must recognize that from China's point of view, the 
United States appears to have been working since 9-11 to build a new 
arc of bases and allies in their backyard, and that this seems 
consistent with a policy to ``contain'' China. If the United States 
wishes to collaborate on terrorism, reassure China of our intentions 
and simultaneously reduce perceived threats in Xinjiang, it would be 
wise to engage with the Shanghai Cooperation Organization as a body, 
rather than pursuing a series of bilateral arrangements with its 
members.
    Notes:
    James Millward, Violent Separatism in Xinjiang: A Critical 
Assessment, Policy Studies # 6 (Washington: East-West Center, 2004).
                                 ______
                                 

                Prepared Statement of S. Frederick Starr

                           NOVEMBER 16, 2005

    A visitor to Xinjiang today will find much to admire. The land is 
austere but beautiful, and the great oases that ring the Taklamakan 
desert are verdant. Thanks to oil and gas production it is a prosperous 
territory, at least in a statistical sense, with more production than 
any other non-coastal province of China. Oil wealth has turned the once 
somnolent Turkic town of Urumchi into a humming metropolis. The newly 
opened railroad to Kashgar will doubtless produce the same result in 
that historic center of Turkic and Muslim life.
    The problem is that nine-tenths of the inhabitants of the new 
Urumchi are Han Chinese who have only recently settled in a province 
whose population was 98 percent Turkic only three generations ago. The 
same process is beginning in Kashgar, Xinjiang's second city. 
Meanwhile, the oases on which the majority Uyghur and other Turkic 
peoples live are very poor by comparison.
    This is a common problem of development and has certain parallels 
in the expansion of Russia, Australia, Brazil, and the United States. 
What is noteworthy is how the Chinese government has dealt with it. For 
a generation and a half after 1949 Beijing took a hard line to impose 
its control, using tough top-down controls whenever necessary. After 
1985 it shifted to a softer approach, focusing on economic incentives, 
affirmative action in education, and a respectful place for the Turkic 
Uyghur language in public life. Then in the late 1990s, concerned over 
what it terms ``splittism'' or separatism and radical Islam, China's 
government shifted back to a policy that is harsh to the point of 
brutality, as is implied by the very name of its campaign in the 
region, ``Strike Hard, Maximum Pressure! ''
    This policy continues today, and with devastating consequences. 
Thousands have died in confrontations with the police, including some 
300 young people in the northern town of Ili who, in 1997, dared to 
mount an independent campaign against alcohol abuse. In terms of nearly 
all the commonly accepted indexes of democracy and human rights, the 
situation in Xinjiang is lamentable.
    Permit me to touch briefly on ten areas that should be of concern 
to your committee. I do so as the editor of a multi-year study of 
Xinjiang funded by the Luce Foundation and carried out by the Central 
Asia-Caucasus Institute at Johns Hopkins University's Nitze School of 
Advanced International Studies. Some eighteen scholars, most of whom 
know Uyghur and other local Turkic languages as well as Han Chinese and 
all of whom have carried out research in Xinjiang, contributed to the 
study, available as a book entitled Xinjiang: China's Muslim Borderland 
(M.E. Sharp). The comments that follow are based on research findings 
of this book but I take sole responsibility for their contents.
    So, let us ask:

          1. Are there free and fair elections in Xinjiang? No, any 
        more than there are in other areas of China with the partial 
        exception of Hong Kong.
          2. Does there exist a parliamentary body or other form of 
        representing public opinion at the governmental level? No. The 
        Communist apparatus is alive and well in Xinjiang and is safely 
        controlled from above from Beijing. At its best, the Party is 
        capable of discerning public discontent and even acting on it. 
        But even this minimal form of responsiveness is done for the 
        Turkic peoples and not by them.
          3. Does the Turkic population, which is still a slight 
        majority, enjoy equal rights with the Han Chinese? For a decade 
        after 1985 something approaching this occurred, but by 2000 
        political, economic, social, and religious rights of the Turkic 
        peoples were again being systematically repressed. The number 
        of Uyghurs in top government posts has shrunk, the government 
        has clamped down on Turkic entrepreneurship, health indicators 
        are far better for urban Han Chinese than for Turkic peoples, 
        and Muslim practice is severely 
        restricted.
          4. Is the court system free of governmental interference? No, 
        any more than it was free in the USSR, from which Mao's China 
        borrowed many of its judicial institutions and practices.
          5. Does the government observe minimal international 
        standards for the maintenance of persons held in jails and 
        labor camps? No. Worse, Xinjiang's jails are subject to so 
        powerful an information blackout that information on even the 
        most egregious instances of brutality can takes years to leak 
        out, or may go totally unreported.
          6. Do the Turkic peoples of Xinjiang have reasonable access 
        to income-producing employment and social services? No. Nearly 
        all the most remunerative employment in Xinjiang is in Han 
        Chinese hands, and when Uyghur businesswoman Rebiya Kadeer 
        become one of the most successful entrepreneurs in China she 
        was jailed for eight years. Higher education is now conducted 
        entirely in Han Chinese, and any Turkic parent wishing for 
        younger children to get ahead will avoid placing them in those 
        lower schools that teach in Uyghur.
          7. Is the practice of religion free from governmental 
        interference? No. The return to ``hard'' policies toward the 
        Muslim majority in Xinjiang after 1985 gave rise to a very 
        small but active strain of Islamic extremism in Xinjiang. 
        Moreover, during the 1990s the province was subjected to 
        influences from Taliban Afghanistan and fundamentalist areas in 
        Pakistan. The effort to suppress these led to a general and 
        indiscriminate crackdown on Islam in Xinjiang, including 
        mainstream and traditionalist Sunni practice and the Sufi 
        orders that once flourished there. One of the latter was 
        suppressed only this August.
          8. Are domestic or international NGOs able to function in 
        Xinjiang? Nearly every attempt at self-organization and 
        voluntarism by indigenous Uyghurs, Kazakhs, Kyrgyz, and Tajiks 
        has been suppressed, in some cases with the loss of hundreds of 
        lives. Foreign NGOs do not operate on the territory of 
        Xinjiang.
          9. Are there free media in Xinjiang? No. Not only that, but 
        Beijing, through its Shanghai Cooperation Organization and 
        other forms of diplomatic pressure, has successfully stifled 
        free expression on Xinjiang-related issues in the neighboring 
        sovereign states of Kazakhstan, the Kyrgyz Republic, 
        Tajikistan, and Uzbekistan.
          10. Do citizens of Xinjiang have access to international 
        travel and contacts through which they can air their concerns 
        in relevant international media and forums? No. International 
        travel and communications by Turkic citizens of Xinjiang is 
        severely restricted. Even the border trade with Kazakhstan, 
        Kyrgyzstan and Tajikistan is now largely in the hands of Han 
        Chinese. Internet access in Turkic towns is extremely limited 
        or nonexistent. As a result, Xinjiang's indigenous population 
        has no way of projecting its voice to the world. The emigre 
        community of Xinjiang Uyghurs, Kazakhs, etc. is active but the 
        small number of its members and pressure from Beijing assure 
        that its voice is barely audible.

    Beijing believes that its ``Strike Hard, Maximum Pressure'' 
campaign is a prudent response to a genuine threat of religious 
extremism and separatism and only this August has reaffirmed it. Let us 
recognize that Islamic radicalism does exist in Xinjiang and the 
government of China would be irresponsible if it were to ignore it. Two 
radical Islamist groups in Xinjiang were recognized by the United 
States and the United Nations as terrorist organizations. But Beijing's 
uncompromising response is rendered counterproductive when it coincides 
with such harsh measures against the mainstream population as those 
outlined above.
    These in turn are rationalized in terms of the campaign against 
separatism. Yet the ``Strike Hard'' campaign has long since wiped out 
whatever separatist currents may have existed in Xinjiang a decade ago. 
Those few voices still calling for Xinjiang's independence arise from 
abroad and are audible mainly on the Internet.
    Today, the overwhelming majority of Xinjiang Uyghurs, Kazakhs, 
Kyrgyz, and Tajiks would be quite content with a greater degree of 
autonomy, as opposed to outright independence. Their plea is simply for 
the current Chinese government to fulfill the expectations that Mao 
Zedong himself generated when, after conquering the province, named it 
the ``Xinjiang Uyghur Autonomous Region'' (emphasis mine).
    The U.S. government, other western countries, and the EU have 
rightly been concerned with the state of democracy, human rights, and 
religious freedoms in the Caucasus and Central Asia. With the collapse 
of Soviet imperial rule eight new states were created in these regions. 
At independence, all of them were weak and poor, with small populations 
ranging from four to 24 million. They were inaccessible to trade and 
those lacking oil and gas were poor in resources. None had any real 
experience with democracy and the rights that citizenship should 
confer. Our efforts in behalf of democracy, human rights, and religious 
freedom have concentrated above all on these eight states.
    However, Armenia, Azerbaijan and Georgia constitute only a part of 
the Caucasus. The rest of the region--Dagestan, Ingushetia, North 
Ossetia, Chechnya, and Kabardino-Balkaria--remains under Russian rule. 
Similarly, Kazakhstan, the Kyrgyz Republic, Tajikistan, Turkmenistan, 
and Uzbekistan are only part of Central Asia, the rest being 
Afghanistan and Xinjiang.
    Merely to mention this raises an obvious point. It cannot be denied 
that the independent countries I just listed are guilty of many and at 
times serious lapses in the areas of democracy, human rights, and 
religious freedom. So, of course, were the newly independent United 
States of America. But even at their worst, their record in all three 
areas of concern to your committee is far better than is the record of 
Russia's rule in Chechnya, Dagestan, and Ingushetia, and of China's 
rule in Tibet and in Xinjiang.
    And yet how different is our response to the two situations! When 
the small, weak, relatively poor, but independent states stumble in the 
area of democracy, human rights, and religious freedom we editorialize 
against them, pass censure motions, heap public abuse on their leaders, 
threaten to suspend aid, and decertify them even for humanitarian 
assistance. But when large, rich and powerful states impose their rule 
over other parts of the same region with brutal and primitive force--in 
the process assaulting the principles of democracy, human rights, and 
religious freedom--we continue to receive their leaders as honored 
guests and otherwise remain silent.
    By the act of its founding the United States placed itself on the 
side of national self-determination and those seeking freedom from 
imperial rule. Recently, however, it appears that we have reversed this 
age-old stance. We seem to acquiesce in serious abuses committed by 
those who are the heirs of empires acquired by force, and instead focus 
narrowly on the shortcomings of independent states that have no 
understanding of how to apply the values we hold high.
    The word ``engagement'' is a resonant term in this city's 
discussion of foreign affairs. Applied to the Caucasus and Central 
Asia, we seem more willing to engage with those in Moscow who rule the 
North Caucasus and with those in Beijing who rule Xinjiang, than we are 
with those in the eight newly independent states who are trying, 
against formidable odds, to govern their countries under conditions of 
great insecurity and to build their still fragile economies in a 
globalized world with which they had little or no direct contact until 
very recently.
    Let me be clear: I am not arguing against engagement with the 
Peoples Republic of China, nor am I proposing that we ``give a pass'' 
to governments in Central Asia and the Caucasus when they commit abuses 
in the area of democratization, human rights, and religious freedom. 
Instead, I am suggesting that it is time that we take our finger off 
the scales, and start acting on our values in a consistent manner. At 
the very least, we must stop allocating rewards and punishments, 
engagement and rebuke, on the basis of whether a country is large or 
small, secure or vulnerable, powerful or weak. Removing what appears to 
many as a double standard will go far toward promoting the noble ends 
we seek to promote.
                                 ______
                                 

                Prepared Statement of Daniel Southerland

                           NOVEMBER 16, 2005

    ``The [RFA] programs speak to my heart. . . .The world must hear 
what is going on here.''--RFA Uyghur service listener.
    The Chinese government has for many years tightly controlled 
information reaching the Uyghur people in Xinjiang. But the 
government's controls over the media and freedom of expression in 
Xinjiang appear to have grown even stricter since the 9/11 attacks in 
the United States in 2001.
    The Chinese government currently controls the media in Xinjiang 
even more tightly than in other parts of China, except perhaps for 
Tibet. As a result, broadcasting to the Xinjiang Uyghur Autonomous 
Region (XUAR) has constituted one of the most challenging tasks 
undertaken by Radio Free Asia (RFA).
    RFA broadcasts in 12 languages and dialects to listeners in Asia 
who primarily have access only to state-run media. RFA's purpose is to 
deliver accurate news, information, and commentary, and to provide a 
forum for a variety of voices from within Asian countries that do not 
tolerate free media. RFA, by broadcasting objective news, seeks to 
promote freedom of opinion and expression, including the freedom to 
seek, receive, and impart information and ideas through any medium 
regardless of frontiers. This principle is enshrined in Article 19 of 
the Universal Declaration of Human Rights.
    When it comes to Uyghur language broadcasting, RFA is the only 
broadcaster that attempts to provide accurate and objective news. Saudi 
Arabia does some broadcasting in the Uyghur language, but only on 
religious matters. Taiwan stopped broadcasting in Uyghur several years 
ago. Central Asian broadcasts in Uyghur are edited so as to avoid 
offending the Chinese government.
    The Chinese government itself broadcasts in Uyghur but censors the 
information that is of the greatest relevance to the Uyghur people. 
Foreign correspondents rarely travel to Xinjiang. When they do go, it 
is mostly on guided tours. RFA covers stories no one else covers. And 
the Chinese government is doing things in Xinjiang that it no longer 
does in many other parts of China. Executions of political prisoners 
are common. Officials don't just ban books in Xinjiang. They burn them. 
They force Uyghurs to work on roads and construction projects without 
pay. School-age children are forced to pick cotton. They restrict 
religious education, even in the home. They rewrite textbooks so that 
Ugyhurs cannot recognize their own history. Perhaps most significant, 
the government is now imposing the latest of many educational 
``reforms'' that will largely replace the use of the Uyghur language 
with the Chinese language. This started at the university level is now 
being implemented at lower levels of the educational system.
    RFA has reported extensively on the forced labor and language 
issues in recent months. Over the last year, RFA has also covered such 
taboo subjects as environmental pollution in Uyghur villages, land 
disputes involving the forced displacement of Uyghur villagers, and 
restrictions on religious sermons, religious attire, and mosque-
building.
    In such a repressive environment, Uyghur writers are particularly 
vulnerable. They can easily be accused of engaging in ``separatist 
thought.'' A writer promoting non-violent dissent can be accused of 
advocating terrorism. For instance, in mid-2005, RFA reported that the 
Chinese authorities had arrested Nurmuhemmet Yasin, the author of a 
fictional first-person narrative of a young pigeon--the son of a pigeon 
king who is trapped and caged by humans when he ventures far from home. 
In the end, the pigeon commits suicide by swallowing a poisonous 
strawberry rather than sacrifice his freedom.
    The authorities apparently read the story, titled ``Wild Pigeon,'' 
as an indictment of China's heavy-handed rule in Xinjiang. They gave 
Yasin a 10-year jail term for inciting Uyghur separatism. RFA later 
learned that the chief editor of the Kashgar Literature Journal, which 
published the fable, was given a three-year prison sentence. The fate 
of these two men might have gone unreported had RFA not learned about 
the prison sentences from sources inside Xinjiang.
    No wonder, then, that the Chinese government heavily jams RFA 
broadcasts to Xinjiang. Jamming consists of heavy noise, loud music and 
co-channeled Chinese programs. China typically jams any new frequency 
that RFA selects within 30 to 40 minutes of the first broadcast. Every 
month, the Federal Communications Commission (FCC) files a complaint 
against Chinese jamming of U.S.-supported broadcasts with the 
International Telecommunications Union. China consistently denies that 
it is jamming.
    Three years ago, the Chinese government-run Xinjiang Radio and 
Television station revealed that the government had invested 300 
million yuan (nearly $40 million) in a new project designed to more 
heavily jam international broadcasts. The targets were obviously RFA 
Uyghur and RFA and Voice of America Mandarin broadcasts. At the same 
time, the government began building up its own Uyghur broadcasting 
capability.
    In late July 2004, the Chinese government began trying to disrupt 
RFA's Mandarin, Tibetan, and Uyghur call-in shows. Chinese operators 
told callers that the regular access number to RFA was dead. Meanwhile, 
persons apparently working for the government bombarded RFA day after 
day with hundreds of automated phone calls in an apparent attempt to 
block out legitimate regular callers. Callers complained about busy 
signals eight out of 10 times when seeking 800-number access. 
Fortunately, dedicated RFA callers were able to overcome these 
problems. And callers continue to give RFA tips that once checked out 
lead to important stories.
    One such tip came late last year from a farmer in Xinjiang who had 
been trying together with other farmers to get a state-run TV and radio 
station to run a story on a disease that was killing livestock in the 
Ili prefecture.
    ``We went to the local media to ask them to inform our herdsmen 
about the disease, but all of them said that without approval from a 
supervisor, they couldn't report it. Finally we sent someone to Ili 
City, to the Uyghur radio station, and their answer was the same--but 
they told us to inform Radio Free Asia's Uyghur service. So we called 
you.''
    RFA could obviously not use this story based on a phone call from 
an anonymous farmer, but eventually we got confirmation from an 
official in the regional animal husbandry bureau. The disease turned 
out to be hoof-and-mouth disease, a highly contagious virus affecting 
cows and sheep.
    The Chinese government heavily blocks RFA Web sites directed at 
China in Mandarin, Cantonese, Tibetan, and Uyghur. But we know that our 
news does get through via proxy servers and ``human proxies'' who e-
mail our reports or post them on different Web sites.
    The Uyghur Web site has now become the only Web site that is 
updated continuously in all three scripts used by the Uyghurs: Arabic, 
Cyrillic, and Latin. All three are immediately available at the click 
of a button. An innovative feature, launched on August 5, 2005, allows 
the reader to switch instantly from one script to another. In addition 
to providing accurate and timely news reports, the site also functions 
as a collective memory for the Uyghurs' besieged culture. It carries 
regular features on Uyghur history and cultural and artistic life, and 
on the works of Uyghur scholars and scientists. RFA recently added a 
message board. The Uyghur community around the world uses it to post 
poems, short stories, personal thoughts, and announcements of events.
    The RFA Uyghur Web site received an Edward R. Murrow award last 
year for its innovation, functionality, interactivity, and design.
    An RFA story earlier this year showed that news sent via the 
Internet can reach Xinjiang in creative ways. On March 17, Uyghur 
businesswoman Rebiya Kadeer arrived in Washington following her release 
from prison in China. Kadeer had spent more than five years in prison 
after protesting China's mistreatment of the Uyghurs. After Kadeer 
reached Reagan National Airport, her husband, Sidik Rouzi, held her in 
a tight embrace. An RFA story and a photo of this embrace went out via 
the Internet to Xinjiang, where the Internet police blocked both story 
and photo. But before the police could do their work, someone managed 
to cut and paste, remove the banned RFA address, and move the story and 
photo along. When Kadeer called her children in China, they were able 
to tell her that they had seen the photo of their father and mother 
embracing each other after five years apart.
    But the challenge of getting such images and information into 
Xinjiang remains a daunting one. Based on studies done for RFA's 
research department, the atmosphere in the XUAR is clearly the most 
repressive of that of any of the regions in China. One study concludes 
that the PRC authorities have ``used the `global war on terror' to 
justify harsh measures in the XUAR designed to stamp out political and 
social dissent, with little distinction between acts of violence and 
acts of passive 
resistance.''
    In contrast with other parts of China, where people now feel free 
in private to discuss personal matters or even political issues when 
they do not directly challenge the Chinese Communist Party, many 
Uyghurs dare not discuss sensitive issues, even with friends or family 
members.
    Although Internet usage is spreading gradually in the XUAR, 
particularly the use of Internet chat rooms, accessing the Web sites of 
international broadcasters remains an activity too risky for most 
Uyghurs to try.
    But for many Uyghurs, RFA broadcasts remain a ``lifeline'' in a 
hostile PRC media environment. International broadcasts are the only 
means for many Uyghurs to get reliable news of the outside world as 
well as news about developments inside the XUAR.
    ``RFA broadcasts, like an educator, have brightened our hearts,'' 
one listener commented recently. ``They have opened our eyes. China 
always wants to keep the Uyghurs ignorant of the world. But now we 
understand democracy, human rights, and freedom. RFA broadcasting means 
more than food, drink, and air to us, because it gives us hope and 
inspiration. We hope RFA increases broadcasting time in the Uyghur 
language.''

                                 <all>

</pre></body></html>
